Audit Report




OIG-13-001
SAFETY AND SOUNDNESS: Failed Bank Review of Inter Savings
Bank, FSB, Maple Grove, Minnesota


October 3, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
 
                                   DEPARTMENT OF THE TREASURY
                                         W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                      October 3, 2012


      OIG-13-001

      MEMORANDUM FOR THOMAS J. CURRY
                     COMPTROLLER OF THE CURRENCY

      FROM:                 Susan L. Barron /s/
                            Director, Banking Audits

      SUBJECT:              Failed Bank Review of Inter Savings Bank, FSB, Maple
                            Grove, Minnesota


      This memorandum presents the results of our review of the failure of Inter Savings
      Bank, FSB (Inter Savings), located in Maple Grove, Minnesota. The former Office of
      Thrift Supervision (OTS) regulated Inter Savings until July 21, 2011, when the
      Office of the Comptroller of the Currency (OCC) assumed regulatory responsibility
      for federal savings associations pursuant to P.L. 111-203. Inter Savings was
      chartered in July 1965 as a federal mutual savings association under the name of
      Falls Federal Savings and Loan Association. In May 1990, the institution converted
      its charter to a federal stock savings association and changed its name to
      International Savings Bank, FSB. Inter Savings changed to its current name in
      1992. Besides its main office in Maple Grove, Inter Savings had three branch
      offices that were also in the Minneapolis/St. Paul, Minnesota, area. OCC closed
      Inter Savings and appointed the Federal Deposit Insurance Corporation (FDIC) as
      receiver on April 27, 2012. As of December 31, 2011, Inter Savings had
      approximately $481.6 million in total assets. As of June 30, 2012, FDIC estimated
      the loss to the Deposit Insurance Fund to be $119.2 million.

      Because the loss to the Deposit Insurance Fund is less than $150 million, as set
      forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
      of the failure of Inter Savings that was limited to (1) ascertaining the grounds
      identified by OCC for appointing the FDIC as receiver and (2) determining whether
      any unusual circumstances exist that might warrant a more in-depth review of the
      loss. In performing our review we (1) examined documentation related to the
      appointment of FDIC as receiver, (2) reviewed OTS and OCC reports of
      examination for the 5-year period before the bank’s failure, and (3) interviewed
      OCC personnel. We performed our field work between May and July 2012.
OIG-13-001
Page 2

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


Causes of Inter Savings’ Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank was in an unsafe and unsound condition to transact business;
and (3) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance.

The primary cause of Inter Savings’ failure was the board of directors’ and
management’s pursuit of an aggressive growth strategy that resulted in
concentrations in nontraditional mortgage loans with high loan-to-value ratios to
low credit score borrowers. This growth was undertaken without establishing
appropriate concentration risk management practices and adequate capital for its
risk profile. In addition, the decline in the Minneapolis/St. Paul real estate market
was a contributing factor in Inter Savings’ failure. Many of Inter Savings’ borrowers
were laid off from construction-related jobs, resulting in increased loan
delinquencies. Failure by the board and management to adjust quickly or effectively
to changing economic conditions led to the deterioration in the bank’s asset quality
and decline in earnings and capital, which ultimately led to Inter Savings’ failure.


Conclusion
Based on our review of the causes of Inter Savings’ failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. In making this determination, we took into consideration that the
federal savings association functions of OTS, Inter Savings’ regulator until July
2011, transferred to OCC. We provided a draft of this memorandum to OCC
management for comment. In its response, OCC stated that it agreed with our
conclusion as to the causes of the failure of Inter Savings’ and that it had no
concerns with our determination that an in-depth review of the bank’s failure is not
OIG-13-001
Page 3

warranted. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-13-001

       Attachment 1
Management Response
                                                       OIG-13-001

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
